July 2009
Report No. AUD-09-014


Material Loss Review of Franklin Bank,
S.S.B., Houston, Texas




             AUDIT REPORT
                                          Report No. AUD-09-014                                                                               July 2009


                                          Material Loss Review of Franklin Bank, S.S.B,
                                          Houston, Texas
 Federal Deposit Insurance Corporation


Why We Did The                            Audit Results
Audit
                                          REASON FOR FAILURE AND MATERIAL LOSS
On November 7, 2008, the Texas
Department of Savings and Mortgage        Overall, Franklin failed due to bank management’s high-risk business strategy. The strategy focused on asset
Lending (DSML) closed Franklin            growth concentrated in 1-4 family residential and ADC loans funded with wholesale funding, including potentially
Bank, S.S.B. (Franklin), Houston,         high-cost and volatile deposits and borrowings. Coupled with weak risk management practices and controls, this
Texas, and named the FDIC as              business strategy left the bank unprepared and unable to effectively manage operations in a declining economic
receiver. On November 28, 2008,           environment. Franklin’s asset quality deteriorated significantly as the real estate market and economy slowed.
the FDIC notified the Office of           For example, adverse loan classifications increased from $178.5 million reported in the October 2007 Report of
Inspector General (OIG) that              Examination (ROE) to $783.7 million reported in the July 2008 ROE. Franklin’s adverse classifications,
Franklin’s total assets at closing were   including loan losses, resulted primarily from its portfolio of 1-4 family residential loans and ADC loans. As
$4.9 billion, with a material loss to     adverse loan classifications increased, earnings eroded, liquidity became strained, and Franklin’s capital became
the Deposit Insurance Fund (DIF)          increasingly deficient. Ultimately, Franklin was closed by the DSML due to the bank’s inability to meet liquidity
estimated at $1.5 billion. As             needs. The resulting loss to the DIF at closing was estimated at $1.5 billion.
required by section 38(k) of the
Federal Deposit Insurance Act, the        ASSESSMENT OF FDIC SUPERVISION
OIG conducted a material loss
review of the failure of Franklin.        FDIC’s Division of Supervision and Consumer Protection’s Dallas Regional Office and DSML performed timely
                                          joint safety and soundness examinations of Franklin, conducting six examinations from September 2003 through
The audit objectives were to              July 2008. Franklin’s composite ratings remained at 2 until the October 15, 2007 examination when the bank’s
(1) determine the causes of the           composite rating was downgraded to 3, indicating increasing risk. As a result of the July 14, 2008 examination,
financial institution’s failure and       the composite rating was downgraded to 5, indicating extremely unsafe and unsound practices or conditions,
resulting material loss to the DIF and    critically deficient performance, and inadequate risk management practices.
(2) evaluate the FDIC’s supervision
of the institution, including             Throughout the period 2003 to 2008, the FDIC made recommendations, including in relation to Franklin’s
implementation of the Prompt              identification and monitoring of loan concentrations, establishment of liquidity risk limits and contingency
Corrective Action (PCA) provisions        liquidity plans, and enhancement of the internal audit function. The FDIC did not always ensure that bank
of section 38.                            management effectively responded to such recommendations. Also, in the 2006 ROE, in particular, the FDIC
                                          could have better recognized and analyzed risk. For example, the FDIC did not clearly identify in the 2006 ROE
                                          the risk in Franklin’s 1-4 family loan portfolio as a potential concern. The FDIC also did not identify ADC loan
Background                                underwriting and administration weaknesses on a timely basis. As a result, the bank’s risk profile and asset
                                          quality weaknesses did not become evident until the real estate market began to deteriorate and significant
Franklin, a state-chartered savings       delinquencies and losses occurred, starting in 2007.
bank, was established and insured on
January 8, 1987. When the bank            To address examiner concerns from the October 2007 examination, including apparent violations of laws and
failed, in addition to its main office,   regulations, inadequate risk management controls, and other safety and soundness issues, the DSML and the FDIC
the bank operated 46 full-service         requested Franklin to adopt a Bank Board Resolution, which the bank’s board of directors adopted on March 31,
branches in Texas, commercial loan        2008.
offices in 6 states, and 42 mortgage-
banking offices in 22 states.             With respect to PCA, Franklin was categorized as significantly undercapitalized just prior to its failure. As a
                                          result, the FDIC issued a Cease and Desist Order (C&D) that contained a capital provision that directed Franklin
Franklin’s loan portfolio was             to increase its capital. The C&D was issued on November 4, 2008, 3 days before the bank was closed
concentrated in 1-4 family residential
loans and acquisition, development,       Although bank management is ultimately responsible for determining the success or failure of an institution, the
and construction (ADC) loans. The         FDIC has authority to take a wide range of supervisory actions. In the case of Franklin, however, while
FDIC has provided bank and                recommendations were made and certain supervisory actions were taken over a 5-year period, these actions were
examination guidance on 1-4 family        not always timely and effective in addressing the bank’s most significant problems.
residential lending, including
mortgage banking, nontraditional          The FDIC OIG plans to issue a series of summary reports on material loss reviews and will make appropriate
mortgages, and subprime loans.            recommendations related to the failure of Franklin and other FDIC-supervised banks at that time.
In addition, FDIC guidance issued to
financial institutions describes a risk
                                          Management Response
management framework to
effectively identify, measure,            DSC agreed with the OIG’s assessment that Franklin failed due to management’s pursuit of a high-risk business
monitor, and control commercial real      strategy and acknowledged that more timely and strict supervisory enforcement action was necessary. DSC
estate concentration risk. That           pointed out that rapid and pronounced declines in the residential real estate and secondary mortgage funding
framework includes effective              markets were important contributing factors to Franklin’s failure and resulting material loss to the DIF. With
oversight by bank management,             respect to its supervision of Franklin, DSC stated that substantial and ongoing supervisory concern had been
including the board of directors and      demonstrated by examiner recommendations since 2003 and quarterly offsite monitoring that was conducted
senior executives, and sound loan         because of Franklin’s rapid-growth strategy. DSC further stated that in March 2008, it became aware of significant
underwriting, credit administration,      errors and possible intentional falsification of Franklin’s Call Reports and decided to accelerate the next scheduled
                                          examination to July 2008, which ultimately resulted in the downgrading of Franklin to a composite 5 rating.
and portfolio management practices.

 To view the full report, go to www.fdicig.gov/2009reports.asp
Contents                                                                    Page

BACKGROUND                                                                    2

REASON FOR FAILURE AND MATERIAL LOSS                                          3
  High-Risk Business Strategy                                                 4
    1-4 Family Residential and ADC Concentrations                             4
    Volatile Wholesale Funding Sources                                        6

  Weak Risk Management Practices                                              7
   Internal Audit                                                             8
    Due Diligence                                                             8
    Internal Control and Financial Reporting                                  8
    Allowance for Loan and Lease Losses (ALLL) Methodology                    9
    Implementation of Examiner Recommendations                               10
    Other Matters                                                            10

ASSESSMENT OF FDIC SUPERVISION                                               11
  Historical Snapshot of FDIC Supervision                                    11

   OIG Assessment of FDIC Supervision                                        12
    Risk Identification and Analysis                                         12
    FDIC Actions to Address Risks                                            15

IMPLEMENTATION OF PCA                                                        16

CORPORATION COMMENTS AND OIG EVALUATION                                      17

APPENDICES
  1. OBJECTIVES, SCOPE, AND METHODOLOGY                                      19
  2. GLOSSARY OF TERMS                                                       21
  3. EXAMINER COMMENTS AND RECOMMENDATIONS                                   22
  4. CORPORATION COMMENTS                                                    25
  5. ACRONYMS IN THE REPORT                                                  27


TABLES
  1. Financial Condition of Franklin                                          3
  2. Concentrations (Loans & Leases as a Percentage of Total Capital)         4
  3. Franklin’s Non-Core Funding Sources and Net Non-Core Fund Dependence     7
      Ratios
  4. Franklin’s ALLL and Total Risk-Based Capital Ratios                     10
Federal Deposit Insurance Corporation                                                                Office of Audits
3501 Fairfax Drive, Arlington, VA 22226                                                 Office of Inspector General


DATE:                                     July 2, 2009

MEMORANDUM TO:                            Sandra L. Thompson, Director
                                          Division of Supervision and Consumer Protection



FROM:                                     Russell A. Rau
                                          Assistant Inspector General for Audits

SUBJECT:                                  Material Loss Review of Franklin Bank, S.S.B., Houston,
                                          Texas (Report No. AUD-09-014)


As required by section 38(k) of the Federal Deposit Insurance Act (FDI Act), the Office
of Inspector General (OIG) conducted a material loss 1 review of the failure of Franklin
Bank, S.S.B. (Franklin), Houston, Texas. On November 7, 2008, the Texas Department
of Savings and Mortgage Lending (DSML) closed the institution and named the FDIC as
receiver. On November 28, 2008, the FDIC notified the OIG that Franklin’s total assets
at closing were $4.9 billion, and the material loss to the Deposit Insurance Fund (DIF)
was $1.5 billion. As of May 31, 2009, the estimated loss to the DIF decreased to
$1.4 billion.

When the DIF incurs a material loss with respect to an insured depository institution for
which the FDIC is appointed receiver, the FDI Act states that the Inspector General of the
appropriate federal banking agency shall make a written report to that agency which
reviews the agency’s supervision of the institution, including the agency’s
implementation of FDI Act section 38, Prompt Corrective Action (PCA); ascertains why
the institution’s problems resulted in a material loss to the DIF; and makes
recommendations to prevent future losses.

The audit objectives were to: (1) determine the causes of the financial institution’s
failure and resulting material loss to the DIF and (2) evaluate the FDIC’s supervision 2 of
the institution, including implementation of the PCA provisions of section 38 of the FDI
Act. Appendix 1 contains details on our objectives, scope, and methodology; Appendix 2



1
  As defined by section 38(k)(2)(B) of the FDI Act, a loss is material if it exceeds the greater of $25 million
or 2 percent of an institution’s total assets at the time the FDIC was appointed receiver.
2
  The FDIC’s supervision program promotes the safety and soundness of FDIC-supervised institutions,
protects consumers’ rights, and promotes community investment initiatives by FDIC-supervised insured
depository institutions. The FDIC’s Division of Supervision and Consumer Protection (DSC) (1) performs
examinations of FDIC-supervised institutions to assess their overall financial condition, management
policies and practices, including internal control systems; and compliance with applicable laws and
regulations; and (2) issues related guidance to institutions and examiners.
    contains a glossary of terms; Appendix 3 contains selected FDIC examiner comments and
    recommendations; and Appendix 5 contains a list of acronyms used in the report.

    This report presents the FDIC OIG’s analysis of Franklin’s failure and the FDIC’s efforts to ensure
    Franklin’s management operated the bank in a safe and sound manner. The FDIC OIG plans to issue
    a series of summary reports on our observations on the major causes, trends, and common
    characteristics of financial institution failures resulting in a material loss to the DIF.
    Recommendations in the summary reports will address the FDIC’s supervision of the institutions,
    including implementation of the PCA provisions of section 38.


BACKGROUND

    Franklin was a state-chartered savings bank, established on January 8, 1987 by the DSML, and
    insured by the FDIC effective January 8, 1987. Franklin, which was headquartered in Houston,
    Texas:

           •   had 46 full-service branches in Texas, commercial loan offices in 6 states, and 42
               mortgage-banking offices in 22 states;

           •   had a 2-tier holding company structure, 2 wholly-owned subsidiaries, and 4 non-bank
               affiliates;

           •   provided traditional banking activities within its marketplace; and

           •   specialized in residential and commercial real estate (CRE) lending, with concentrations in
               1-4 family residential and acquisition, development, and construction (ADC) loans. In
               addition, the bank was highly dependent on Federal Home Loan Bank (FHLB) borrowings
               and brokered deposits for its funding.

    Details on Franklin’s financial condition, as of September 2008, and for the 4 preceding calendar
    years follow in Table 1.




                                                       2
    Table 1: Financial Condition of Franklin
     Uniform Bank Performance Report                Sept-08        Dec-07        Dec-06        Dec-05        Dec-04
     Total Assets ($000s)                           $5,089,260 $5,702,461 $5,533,327 $4,467,281 $3,477,922
     Total Deposits ($000)                          $3,692,887 $2,963,100 $2,642,609 $2,137,762 $1,513,757
     Total Loans ($000s)                            $3,539,459 $4,090,003 $4,678,371 $3,826,762 $3,024,860
      Net Loan Growth Rate                            -19.50%       -13.52%        22.38%         26.38%      66.51%
     Net Income (Loss) ($000s)                     ($383,326)a     ($53,562)      $24,368        $30,267      $25,326
     Loan Mix (% of Avg. Gross Loans)
     Total Real Estate Secured Loans                   90.40%        90.54%       92.94%         94.01%       97.11%
      ADC                                              34.33%        30.31%        21.56%         14.88%      10.32%
      CRE - Nonfarm/nonresidential                      9.04%         7.40%         4.44%          2.64%       1.86%
      1-4 family residential – excluding
      Home Equity Lines of Credits                     45.96%        52.02%        66.43%         76.19%      84.64%
     Funding
     Net Loans/Deposits                                91.91%       136.20%      176.59%        178.38%      199.34%
     Core Deposits/Avg. Assets                         52.94%        43.17%        43.06%         42.47%      46.08%
     Brokered/Avg. Assets                              25.12%        17.43%        21.20%         23.92%      27.40%
     Large Time/Avg. Assets                             8.56%         7.07%         5.40%          3.81%       3.65%
     Borrowings/Avg. Assets                            29.32%        37.80%        40.84%         44.05%      40.88%
     Net Non-Core Dependency Ratio                     68.43%        67.95%        74.83%         70.67%      77.38%
     Examination Information                      07/14/2008     10/15/2007 10/16/2006 11/07/2005 09/27/2004
     Component/Composite Ratingsb                    555554/5      333332/3      212222/2      212222/2      212222/2
     Adverse Classifications Coverage Ratio           222.74%        59.12%        12.43%         12.47%       7.31%
      Source: Uniform Bank Performance Reports (UBPR) and Reports of Examination (ROE) for Franklin.
      a
        From December 2007 to September 2008, goodwill impairment expenses totaled $186 million.
      Franklin’s goodwill write-down represented a significant impact to the bank’s recorded equity capital.
      However, intangible assets such as goodwill are excluded from regulatory capital calculations for
      supervisory review purposes.
      b
        Financial institution regulators and examiners use the Uniform Financial Institutions Rating System
      (UFIRS) to evaluate a bank’s performance in six components represented by the CAMELS acronym:
      Capital adequacy, Asset quality, Management practices, Earnings performance, Liquidity position, and
      Sensitivity to market risk. Each component, and an overall composite score, is assigned a rating of 1
      through 5, with 1 having the least regulatory concern and 5 having the greatest concern.


REASON FOR FAILURE AND MATERIAL LOSS

    Overall, Franklin failed due to bank management’s high-risk business strategy. The
    strategy focused on asset growth concentrated in 1-4 family residential and ADC loans
    funded with wholesale funding, including potentially high-cost and volatile deposits and
    borrowings. Coupled with weak risk management practices and controls, this business
    strategy left the bank unprepared and unable to effectively manage operations in a
    declining economic environment. Franklin’s asset quality deteriorated significantly as
    the real estate market and economy slowed. For example, adverse loan classifications
    increased from $178.5 million reported in the October 2007 ROE to $783.7 million
    reported in the July 2008 ROE. Franklin’s adverse classifications, including loan losses,
    resulted primarily from its portfolio of 1-4 family residential loans and ADC loans. As
    adverse loan classifications increased, earnings eroded, liquidity became strained, and
    Franklin’s capital became increasingly deficient. Ultimately, Franklin was closed by the
                                                        3
      DSML due to the bank’s inability to meet liquidity needs. The resulting loss to the DIF
      at closing was estimated at $1.5 billion.


High-Risk Business Strategy

      Franklin’s management employed a high-risk business strategy in which it concentrated
      assets in 1-4 family residential and ADC loans and funded its loan growth with wholesale
      funding, including higher-cost and volatile deposits and borrowings, without sufficient
      mitigating controls. Franklin’s loan portfolio grew over 50 percent between December
      2004 and December 2006, peaking at almost $4.7 billion. This high-risk strategy was a
      significant contributing factor to the failure of Franklin. In particular, the following
      concerns were noted.

      1-4 Family Residential and ADC Concentrations. Franklin’s asset quality problems
      were exacerbated by its emphasis in high-growth markets and concentrations in 1-4
      family residential loans (that contained a significant volume of nontraditional and
      subprime mortgages) and ADC loans, which, as of September 2008 totaled 937 percent
      and 736 percent of total capital, respectively. In particular, Franklin’s management
      allowed significant loan concentrations to exist without adequate risk identification,
      measurement, monitoring, and controls. As shown in Table 2, the bank’s concentration
      in 1-4 family residential loans began to grow significantly in 2002 and remained a major
      product segment into 2008.

      Table 2: Concentrations (Loans & Leases as a Percentage of Total Capital)
        Period           1-4 Family Residential                         ADC
        Ended                     (%)                                   (%)

        Sept-08                     937.35*                             736.12*
         Dec-07                     435.93                              309.30
         Dec-06                     747.37                              311.85
         Dec-05                     942.00                              245.27
         Dec-04                    1077.40                              161.60
         Dec-03                     825.68                               89.05
         Dec-02                     321.08                               10.41
         Dec-01                     165.03                              240.03
      Source: UBPRs for Franklin.
      * The re-growth of the concentration levels in 2008 is the result of increasing losses and declining capital
      levels, rather than asset growth.

          •    1-4 Family Residential Loans: From December 2003 through September 2008,
               Franklin maintained a significant concentration in 1-4 family residential loans,
               which it originated through a retail network of 55 loan production offices in 24
               states as well as purchased through wholesale origination channels. Franklin’s
               concentrations in such loans peaked at about 1,077 percent of total capital as of
               December 2004 but remained high throughout the almost 6-year period.
               Although 1-4 family residential loans are typically considered a less-risky type
                                                            4
        loan, there were factors in Franklin’s 1-4 family residential loan portfolio that
        increased that risk. Specifically, within its 1-4 family residential loan portfolio,
        Franklin originated, purchased, and sold an array of mortgage products that
        included nontraditional and subprime mortgages. 3 The bank’s nontraditional
        mortgage lending program included the following underwriting characteristics:

        •    interest-only loans;
        •    no documentation, limited documentation, and stated income loans;
        •    payment option adjustable rate mortgages;
        •    simultaneous second-lien loans (not held by the bank);
        •    high combined loan-to-value ratios, high combined debt-to-income ratios, and
             loans to borrowers with low credit scores;
        •    purchased loan pools serviced by others; and
        •    multiple risk layers.

        As of July 2008, 82 percent of the 1-4 family residential loans held on the bank’s
        books had been originated under reduced documentation or stated income loan
        programs. In addition, 16 percent of the residential loans were considered
        subprime loans, and 72 percent of the bank’s residential loans were purchased
        from and serviced by others. The purchased loans were typically collateralized
        with first-lien positions; however, many of the homes that collateralized the
        bank’s loans also had second liens in place. As a result, the borrowers had limited
        equity positions in the homes they purchased or refinanced. Further, these loans
        were concentrated in markets that had experienced a significant level of
        appreciation and then deterioration.

        Due to the collapse of the subprime mortgage market and the tightening of the
        mortgage credit market, bank management halted the bank’s nontraditional
        mortgage and subprime operations and, in the first quarter of 2007, began to limit
        the types of 1-4 family residential loan products that it originated to only
        conforming high-quality loans. However, Franklin’s curtailment of its
        nontraditional mortgage and subprime operations was not sufficient to improve
        the overall performance of its loan portfolio.

    •   ADC Loans: In 2005, Franklin management began to change its loan mix by
        increasing its emphasis in ADC loans. Although never quite exceeding the
        concentrations maintained in its 1-4 family residential loan portfolio, Franklin’s
        ADC loan concentration reached 736 percent of total capital, as of September
        2008. Additionally, as of March 2006, Franklin began to purchase unsecured
        ADC loan participations, which added an additional element of risk to its loan
        portfolio. It is important to note that, according to the FDIC, Franklin’s ADC


3
 According to DSC, Franklin did not have a subprime lending program as defined by interagency
guidance. Nonetheless, Franklin had a significant volume of loans with subprime characteristics. Based on
data provided within the October 2007 and July 2008 ROEs, subprime loans represented approximately
67 percent and 171 percent, respectively, of Tier 1 Capital.
                                                      5
       loan growth in 2007 and 2008 was restricted primarily to the bank’s funding of
       existing loan commitments.

       An additional element of risk in Franklin’s ADC loan portfolio was that Franklin
       underwrote ADC loans with corresponding interest reserve loan provisions, which
       allowed borrowers to fund their interest payments through a borrowing line with
       the bank. Although the use of interest reserves is common in certain forms of
       ADC lending, based on our review of the bank’s loan policies, as retained within
       the examination workpapers, the bank did not have interest reserve loan policies
       or standards for the acceptability of, and limits on, the use of interest reserves.
       Furthermore, Franklin had not established a system to measure, monitor, and
       control the volume of loans underwritten with interest reserves. Franklin reported
       to the FDIC that as of May 2008 approximately $410 million (30 percent) of the
       bank’s ADC loan portfolio (based on dollar volume) was comprised of loans with
       interest reserve funding provisions. Based on our review of the 2007 and 2008
       ROEs and related guidance, we identified instances where Franklin may have
       inappropriately used interest reserve loans to (1) bring delinquent loans current;
       (2) modify loans on projects that were experiencing construction delays, funding
       shortfalls, and deteriorating collateral values/positions; and (3) fund raw land
       loans.

       The FDIC has taken recent action addressing the issue of interest reserves.
       Specifically, on March 17, 2008, the FDIC issued a Financial Institution Letter
       (FIL) titled, Managing Commercial Real Estate Concentrations in a Challenging
       Environment (2008 CRE FIL), which, in part, articulated the FDIC’s concern
       about the use of interest reserves for ADC loans. The guidance stated that the
       FDIC has noted the inappropriate use of interest reserves when the underlying real
       estate projects are not performing as expected.


Volatile Wholesale Funding Sources. Franklin’s management employed a funding
structure that centered on high-cost volatile funds to fund its growth, which we believe
was a significant contributing factor leading to the failure of the institution. The bank’s
funding structure relied on wholesale funding sources, including FHLB borrowings,
brokered deposits, time deposits of $100,000 or greater, and high-rate core deposits to
fund asset growth. As stated in the DSC Risk Management Manual of Examination
Policies (Examination Manual), a heavy reliance on potentially volatile liabilities to fund
asset growth is a risky business strategy because the availability of and access to these
funds may be limited in the event of deteriorating financial or economic conditions, and
assets may need to be sold at a loss in order to fund deposit withdrawals and other
liquidity needs. Management did not establish policies or controls that adequately
limited or mitigated the level of risk related to these activities.

A bank’s net non-core dependency ratio indicates the degree to which the bank is relying
on non-core/volatile liabilities to fund long-term earning assets. Generally, a lower ratio
reflects less risk exposure, whereas higher ratios indicate greater risk exposure and a

                                             6
      reliance on funding sources that may not be available in times of financial stress or
      adverse changes in market conditions. For the years ended December 2003 through
      September 2008, the bank was heavily dependent on high-cost non-core funding sources,
      such as FHLB borrowings and brokered deposits, as evidenced by the fact that, as shown
      in Table 3, during this period, Franklin was consistently in the 97th to 98th percentile
      ranking of its peer group average for net non-core funding.

      Table 3: Franklin’s Non-Core Funding Sources and Net Non-Core Fund
      Dependence Ratios
                                 Non-Core Funding Sources                    Net Non-Core Fund Dependence Ratios
                                   (Dollars in Thousands)                                  (Percent)
         Period           Time
         Ended          Deposits of       Brokered           FHLB
                                                                             Franklin      Peer Group     PCT*
                        $100M or          Deposits         Borrowings
                          More
        Sept-08            $531,180        $1,617,951       $1,127,500            68.43           32.99          98
         Dec-07            $436,037          $966,130       $2,100,693            67.95           27.15          97
         Dec-06            $311,202        $1,191,074       $2,309,745            74.83           25.79          97
         Dec-05            $211,998          $867,627       $1,842,394            70.67           26.00          97
         Dec-04            $122,571          $779,308       $1,653,942            77.38           27.34          97
         Dec-03          $98,920             $681,925        $713,119             70.44           23.22          98
         Dec-02          $11,945             $120,450          $62,800            17.62           14.81          57
         Dec-01          $10,238                     0               0            18.25            5.68          77
      Source: UBPRs for Franklin.
      * PCT represents the bank’s percentile ranking within the bank’s designated peer group average.

      Based on the July 2008 ROE, the bank’s FHLB borrowing lines were restricted (and a
      hold was placed on the bank’s FHLB deposits), its securities portfolio was fully pledged,
      and other borrowing lines at correspondent banks were cancelled. In addition, the FDIC
      notified Franklin’s board of directors (BOD) of the bank’s change in PCA category to
      significantly undercapitalized in October 2008, subjecting the bank to brokered deposit
      and deposit rate restrictions. As indicated in Table 3, brokered deposits were Franklin’s
      primary funding source in September 2008, and these restrictions impacted the
      institution’s liquidity. Franklin was unable to raise additional capital or sell off its assets
      without incurring significant losses, resulting in the bank’s inability to meet liquidity
      needs and its ultimate failure.


Weak Risk Management Practices

      Franklin’s BOD allowed bank management to pursue a high-risk business strategy
      without adequate risk management practices and controls. In addition, management
      failed to effectively implement audit and examination recommendations or to ensure that,
      as the bank grew, the sophistication of the bank’s risk identification and monitoring
      systems also expanded to effectively identify, measure, monitor, and control bank
      operations and risks. Franklin’s management did not ensure the accuracy of financial
      reporting and soundness of related accounting controls, which, to a certain degree,


                                                                7
masked the bank’s financial deterioration. Franklin’s weak risk management practices
were exhibited in several areas.


Internal Audit. In the ROEs from September 2003 through July 2008, the FDIC
identified weaknesses in the structure and independence of Franklin’s internal audit
program. The FDIC also noted that the scope and frequency of internal audit coverage
was not fully adequate. In the October 2006 ROE, the FDIC cited Franklin’s
contravention of the Interagency Policy Statement on the Internal Audit Function and Its
Outsourcing, dated December 22, 1997. The policy statement identifies key
characteristics and sound practices for the internal audit function and management of
internal audit outsourcing arrangements. In the July 2008 ROE, the FDIC noted that one
Franklin vice president, who was not independent of management, was involved in
developing risk assessments, testing programs, and selecting audit samples. The lack of
independence was a contravention of the policy statement.


Due Diligence. Franklin’s BOD did not implement an adequate due diligence process for
purchased pools of 1-4 family residential loans. Specifically, it became apparent upon
our review of the ROEs and discussions with FDIC examiners that Franklin purchased
such loan pools without a complete understanding of what is was purchasing. Most
notable, Franklin was not aware that loans it purchased contained second-lien positions
that, in hindsight, made the loans far less attractive and valuable. In our opinion, the lack
of adequate due diligence on these loan pools indicates that Franklin’s BOD did not
ensure that as the bank grew, the sophistication of the bank’s risk identification and
monitoring systems expanded to effectively identify, measure, monitor, and control bank
operations and risk.


Internal Control and Financial Reporting. Franklin’s management did not ensure the
accuracy of financial reporting and soundness of related accounting controls. As a result,
management was unable to ensure the timely and accurate reporting of the bank’s
financial condition, and the bank’s financial deterioration was masked to a certain degree.
As the result of a “whistleblower” complaint, Franklin’s BOD arranged for an
independent investigation of the bank to be conducted by Baker Botts, Limited Liability
Partners, during the first and second quarters of 2008. The investigation revealed
significant accounting errors, inappropriate accounting entries, a lack of internal controls,
and significant questions regarding the competency of management.

In the July 2008 ROE, the FDIC noted that management and the BOD did not provide for
internal controls and information systems that would ensure timely and accurate financial
reporting. According to the FDIC, Franklin’s management disclosed that financial
reporting since December 2006 could not be relied on. The FDIC also noted that
management made multiple amendments to the September 2007 through March 2008
Reports of Condition and Income (Call Report). These amendments were the result of
major accounting and internal control weaknesses related to 1-4 family residential loans,

                                              8
residential loans serviced by others, other real estate owned, loan modifications, and
bank-owned life insurance.


Allowance for Loan and Lease Losses (ALLL) Methodology. Franklin’s management
did not establish a sufficient ALLL or an adequate ALLL methodology. Specifically,
management did not develop an ALLL methodology that fully complied with the
Interagency Policy Statement on the Allowance for Loan and Lease Losses (FIL-105-
2006), dated December 13, 2006. According to FIL-105-2006, each institution must
analyze the collectibility of its loans and maintain an ALLL at a level that is appropriate
and determined to be in accordance with Generally Accepted Accounting Principles
(GAAP). 4 An appropriate ALLL covers estimated loan losses on individually evaluated
loans that are determined to be impaired as well as estimated loan losses inherent in the
remainder of the loan and lease portfolio. As previously discussed, Franklin’s adverse
loan classifications increased significantly between 2007 and 2008. An effective loan
review system and controls (including loan classification and credit grading system)
helps ensure asset quality problems are identified and an appropriate ALLL is
established.

Beginning with the September 2004 examination, the FDIC repeatedly reported concerns
with the bank’s ALLL policies and/or methodology for calculating the ALLL, including
the need for management to consider and document adjusting qualitative factors (such as
industry, geographic, and economic factors) to the industry’s loss rates, and to implement
and document a methodology for measuring loans for impairment. In the October 2007
ROE, the FDIC reported that Franklin did not provide documented support that showed
how the ADC loan portfolio’s historical loss rates had been determined. Further, the
FDIC stated that Franklin did not consider the impact of current environmental factors in
its analysis despite the rapidly deteriorating economic conditions in the bank’s primary
markets. As Franklin’s assets deteriorated, it became apparent that its ALLL was
insufficient to absorb loan losses.

Historically, as shown in Table 4, which follows, from 2002 through 2006, Franklin
maintained the bank’s ratio of ALLL to total loans and leases at levels that were
consistently well below its peer group average – ranging from the 3rd to 10th percentile.
From 2004 until the bank closed, Franklin also maintained its capital levels below peer.




4
  Interagency Policy Statement on the Allowance for Loan and Lease Losses (FIL-105-2006), dated
December 13, 2006, reiterates key concepts and requirements pertaining to the ALLL included in GAAP
and existing supervisory guidance. In addition, the policy describes the nature and purpose of the ALLL;
the responsibilities of BODs, management, and examiners; factors to be considered in the estimation of the
ALLL; and the objectives and elements of an effective loan review system, including a sound loan grading
system.
                                                     9
Table 4: Franklin’s ALLL and Total Risk-Based Capital Ratios
            Period       ALLL to Total Loans           Total Risk Based
            Ended            & Leases                  Capital to Risk-
                                                       Weighted Assets

                         Bank      Peer    PCT*     Bank      Peer    PCT*
                          (%)      (%)               (%)      (%)
           Sept-08      4.11   0.97           98    5.11     14.95         2
            Dec-07      1.33   0.87           87    10.90    15.73        18
            Dec-06      0.25   0.84           10    10.15    16.56         2
            Dec-05      0.35   0.84           10    10.41    17.13         4
            Dec-04      0.24   0.96            4    11.09    15.91        14
            Dec-03      0.27   1.05             3   16.69    16.15        60
            Dec-02      0.37   1.00             5   49.69    18.26        96
         Source: UBPRs for Franklin.
         * PCT represents the bank’s percentile ranking within the bank’s designated peer group average.



Implementation of Examiner Recommendations. Franklin management did not
effectively implement certain recommendations that were repeatedly made in the FDIC’s
ROEs. Such recommendations included: (1) identification and monitoring of loan
concentrations, (2) establishment of liquidity risk limits and contingency liquidity plans
(CLP), 5 and (3) enhancement of the internal audit function. In addition, management did
not implement corrective actions in a timely manner to adequately address risk
management control deficiencies identified by the FDIC in relation to ADC
concentrations, internal auditing, accounting, and financial reporting.


Other Matters. Additionally, in our opinion, Franklin’s management did not implement
a systematic assessment of the economic environment appropriate for the bank’s size,
complexity, and risk profile, nor did Franklin implement an adequate stress testing model
to identify, measure, monitor, and control risk. With respect to the assessment of the
economic environment, Franklin did not perform a systematic economic review that
utilized key market indicators and was tied to specific strategic action plans in case of
deteriorating market conditions. Regarding stress testing, in the October 2007 ROE, the
FDIC recommended that Franklin perform a portfolio-level stress test or sensitivity
analysis to quantify the impact of changing economic conditions on asset quality,
earnings, and capital. In response, Franklin management agreed to implement stress
testing by products and geographies. However, Franklin reviewed loans individually and
did not implement a portfolio-level stress test, as recommended by the FDIC.




5
 The FDIC uses the terms CLP, liquidity contingency plan, and contingency funding plan interchangeably.
For purposes of this report, we use CLP.
                                                  10
ASSESSMENT OF FDIC SUPERVISION

      Over the life of Franklin, the FDIC provided supervisory oversight in many areas,
      including risk management examinations, visitations, and offsite monitoring. Although
      such supervision was extensive, we concluded that the FDIC could have performed
      additional analysis, exercised greater supervisory concern, and taken additional action to
      help prevent the bank’s failure and/or to mitigate the potential level of losses incurred.


Historical Snapshot of FDIC Supervision

      The FDIC and DSML performed timely joint safety and soundness examinations of
      Franklin, conducting six examinations beginning September 2003 through July 2008.
      Franklin’s composite ratings remained at 2 until the October 2007 ROE when the bank’s
      composite rating was downgraded to 3, indicating increasing risk. As a result of the July
      2008 ROE, Franklin’s composite rating was downgraded to 5, indicating extremely
      unsafe and unsound practices or conditions, critically deficient performance, and
      inadequate risk management practices.

      In addition to providing composite and component CAMELS ratings for each ROE, the
      FDIC took other supervisory actions. In particular, within the ROEs, the FDIC made
      many specific recommendations to Franklin related to areas of its operations where
      improvements were appropriate. These areas included Franklin’s identification and
      monitoring of loan concentrations, establishment of liquidity risk limits and CLPs, and
      enhancement of the internal audit function. (A more complete mention of these areas is
      in Appendix 3, which provides an overview of examiner comments and recommendations
      regarding management, asset quality, and liquidity.) Another supervisory action included
      an August 2007 visitation in which the FDIC performed a targeted review of the bank’s
      mortgage banking operations to assess the potential impact on Franklin from the
      secondary mortgage market liquidity crisis.

      Further, to address examiner concerns documented in the October 2007 ROE, including
      apparent violations of laws and regulations, inadequate risk management and internal
      controls, and other safety and soundness issues, the FDIC and DSML requested Franklin
      to adopt a Bank Board Resolution (BBR), which the bank’s BOD adopted on March 31,
      2008. Among its provisions, the BBR contained a provision that addressed the bank’s
      management, stating:

              Within 30 days, the Bank, with the Board’s approval, will have employed and
              retained an experienced and qualified Chief Credit Officer and an experienced
              and qualified senior executive responsible for establishing and directing an
              internal loan review program. 1


      1
       According to the July 2008 ROE, a Chief Credit Officer was elected on December 19, 2007, and a Chief
      Risk Officer was elected on February 12, 2008, which fulfilled this BBR requirement.



                                                       11
      Additionally, Dallas Regional Office officials stated that subsequent to the October 2007
      examination, they had provided a continual on-site presence at Franklin and were actively
      investigating accounting issues.

      Further, after downgrading Franklin to a composite 5 on September 5, 2008, the FDIC
      performed daily liquidity monitoring, which ultimately led to the decision that Franklin
      should be closed. The FDIC’s final supervisory action was the issuance of a Cease and
      Desist Order (C&D) on November 4, 2008, 3 days before the bank was closed.


OIG Assessment of FDIC Supervision

      Based on our review, we concluded that the FDIC could have performed additional
      analysis, exercised greater supervisory concern, and taken additional action to help
      prevent the bank’s failure and/or to mitigate the potential level of losses incurred.
      Specifically, in the 2006 ROE, the FDIC could have better identified and analyzed risk to
      ensure that Franklin established and appropriately implemented controls and risk
      limitation and mitigation strategies. For example, the FDIC did not clearly identify in the
      2006 ROE the risk posed by Franklin’s 1-4 family loan portfolio. The FDIC also did not
      identify ADC loan administration weaknesses on a timely basis. As a result, the bank’s
      risk profile and asset quality weaknesses became evident only after the real estate market
      deteriorated and significant delinquencies and losses occurred, starting in 2007.

      In our opinion, there are two broad areas where the FDIC’s supervision of Franklin could
      have been enhanced. These areas are: (1) risk identification and analysis and (2) actions
      to address risks.


      Risk Identification and Analysis. Overall, the FDIC could have better identified and
      analyzed risk to ensure that Franklin established and appropriately implemented controls
      and risk limitation and mitigation strategies. Examples where we believe the FDIC’s risk
      identification and analysis could have been enhanced are discussed in more detail below.

         •   Franklin’s 1-4 Family Residential Loan Portfolio: In ROEs prior to 2007, the
             FDIC could have better identified the risk posed by Franklin’s 1-4 family
             residential loan portfolio. Specifically, the FDIC described the overall credit
             quality of the bank’s 1-4 family residential loan portfolio as strong due to the
             portfolio’s weighted-average credit scores, weighted-average loan-to-value
             percentage, and estimated average total debt service-to-income ratios; however,
             the FDIC did not identify the bank’s failure to stratify or segment its mortgage
             loan portfolio by risk factors and risk layers. As a result, the FDIC did not
             identify as a potential concern Franklin’s lack of risk identification, measurement,
             monitoring, and control of its nontraditional and subprime loan portfolio.

             Although the FDIC had issued examination guidance in October 2006 titled,
             Interagency Guidance on Nontraditional Mortgage Product Risk, the FDIC did



                                                  12
    not use this guidance during the October 2006 examination, nor does it appear
    that the guidance was used at subsequent examinations. For example, in the July
    2008 ROE, the FDIC stated that the 1-4 family residential loan portfolio “should
    be segmented into groups of loans with similar risk characteristics; for example,
    nontraditional mortgages should be separated from traditional mortgages.”
    However, the FDIC did not emphasize the need for Franklin to establish adequate
    policies and controls that considered risk-layered limits and risk-mitigation
    practices and strategies. Emphasis on risk layering was included in the October
    2006 guidance.

    In our opinion, had the FDIC encouraged Franklin to adequately identify,
    measure, monitor, and control its nontraditional and subprime loan portfolio, the
    level of loss incurred by the bank due to the economic decline could have
    potentially been reduced. In addition, both bank management and examiners
    could have more effectively assessed and managed/supervised the risk associated
    with the bank’s nontraditional and subprime mortgage loan products.

•   Due Diligence for Purchased Loan Pools: The FDIC did not adequately assess
    Franklin’s due diligence related to its purchased loan portfolio. The July 2008
    ROE states that the primary risk factors leading to performance problems in the
    bank’s mortgage loan portfolio related to the existence of second liens (not held
    by the bank), limited documentation or no documentation of income, and
    geographic location. The existence of second liens was unknown to both bank
    management and the FDIC prior to the October 2007 examination due, in part, to
    Franklin’s failure to perform an adequate level of due diligence for third-party
    loan originations and purchased loan pools. The FDIC stated that it did not
    identify the bank’s lack of due diligence in these areas due, in part, to the decision
    to not include a detailed review of that area in the scope of the risk management
    examination. In our opinion, had the FDIC encouraged Franklin to perform a
    more thorough due diligence review, the increased risk associated with the bank’s
    purchased loans may have been more quickly identified and actions may have
    been taken to limit or mitigate the level of risk assumed.

    Interest Reserve Policies: According to information Franklin provided to the
    FDIC, as of May 2008, 30 percent of the bank’s ADC loan portfolio (based on
    dollar volume) was comprised of loans with interest reserve funding provisions.
    However, we found that the FDIC did not review for, or express adequate concern
    about, Franklin’s lack of loan policies regarding the use of interest reserves.
    Appendix A to Part 365—Interagency Guidelines for Real Estate Lending
    Policies requires that each insured bank adopt and maintain a written policy that
    establishes appropriate limits and standards for all extensions of credit that are
    secured by liens on, or interests in, real estate or are made for the purpose of
    financing the construction of buildings or other improvements. The guidance also
    states that policies should address “Standards for the acceptability of and limits on
    the use of interest reserves.” Although required, our review of the FDIC’s ROEs
    and examination documentation indicated that Franklin’s loan policies contained



                                          13
    no such guidelines and limitations. Accordingly, although the FDIC was aware
    that Franklin was employing interest reserves, it did not address Franklin’s failure
    to establish the required standards on the use of interest reserves.

    Further, although we recognize that the use of interest reserves is common in
    certain forms of ADC lending, we found that in some cases, Franklin appeared to
    be using interest reserves inappropriately. Specifically, based on our review of
    the 2007 and 2008 ROEs, we noted interest reserves were provided for projects
    that had experienced development or construction delays, cost overruns, sales or
    leasing shortages, or otherwise were not performing according to the original loan
    agreement and that had some level of collateral impairment. Interest reserves
    were also provided for raw land acquisitions. Further, some loans were modified
    by Franklin with increased interest reserve lines and/or the capitalization of past-
    due interest.

    In our opinion, had the FDIC required Franklin to establish appropriate policies
    that addressed standards for the acceptability of and limits on the use of interest
    reserves, Franklin could have improved its ability to mitigate associated risk.

•   Earnings Performance: The FDIC could have enhanced its assessment of the
    quality of the bank’s earnings performance by analyzing the level of interest
    income that had been derived from interest reserve loans. Although the bank may
    have accounted correctly for the interest income, the borrowers had not “made”
    interest payments. Rather, the interest is capitalized as part of the loan and
    recognized as income over time by the institution. As a result, the bank’s receipt
    of such interest, through the borrowers’ payoff of the loans, may not be assured.
    Examiners could have assessed the bank’s earnings performance based on the
    amount of interest income that was actually received and then measured the
    potential risk to earnings. In our opinion, had the FDIC performed this analysis,
    both the FDIC and Franklin could have had a better understanding of the bank’s
    risk profile (associated with ADC loan concentrations), degree of reliance on
    interest reserves to support earnings performance, and potential earnings exposure
    in a deteriorating economic environment. Based on this understanding, improved
    risk management controls and limits could have been implemented.

•   Volatile Liability Dependence: Beginning with the September 2003 ROE, the
    FDIC repeatedly identified the bank’s reliance on non-core funding sources;
    however, the FDIC also reported that the bank’s strong asset quality and liquid
    loan portfolio mitigated any significant concern over the bank’s volatile liability
    dependence. In our opinion, this position was not supported by the higher-risk
    nature of the bank’s concentrations in nontraditional 1-4 family residential and
    ADC loans. Instead, we believe the FDIC’s assessment of liquidity overrelied on
    the strength of asset quality to mitigate the bank’s volatile liability dependence.
    The FDIC did not identify the potential level of risk until the October 2007 ROE,
    when asset quality began to significantly deteriorate and the marketability of the
    bank’s mortgage portfolio declined. In addition, based on the October 2007 ROE,



                                         14
       the FDIC first recommended that the bank establish a reasonable risk limit for its
       volatile liability dependence. Had the FDIC not overrelied on the strength of
       asset quality, more conservative operating parameters and/or mitigating risk
       factors (such as increased capital levels) could have been established. Based on
       these actions, risk associated with the bank’s significant asset growth and loss
       exposure to adverse economic events could have been reduced.

   •   Economic Risk Management: Examiner comments and analysis concerning the
       bank’s economic risk management practices were lacking. In the September 2003
       and September 2004 ROEs, examiners routinely addressed (and responded
       favorably to) the ROE’s Risk Management Assessment question, “Are risk
       management processes adequate in relation to economic conditions and asset
       concentrations?” In the September 2004 ROE, examiners also noted that the
       BOD and management closely monitored economic conditions. However, the
       examiners’ responses typically did not address the bank’s economic environment
       or address how the bank planned to respond to a potential deterioration in its key
       market areas. The ROEs after the September 2004 examination did not include
       the risk management assessment pages.

   •   ALLL Analysis: The October 2006 through July 2008 ROEs and examination
       workpapers showed that the FDIC did not ensure that the bank had established its
       ALLL for the estimated credit losses inherent in the bank’s nontraditional
       mortgage loan portfolio consistent with regulatory requirements, nor did the FDIC
       ensure that management considered the higher risk of loss posed by layered risks
       when establishing the ALLL. According to the Interagency Guidance on
       Nontraditional Mortgage Product Risk, dated October 2006, banks should
       segment their nontraditional mortgage loan portfolios into pools of loans with
       similar risk characteristics, but Franklin had not done so. The basic segments
       typically include collateral and loan characteristics, geographic concentrations,
       and borrower qualifying attributes. In our opinion, had the FDIC performed or
       encouraged Franklin to perform this analysis, both the FDIC and Franklin could
       have had a better understanding of the risk profile of the bank’s loan portfolio,
       and of the amount of ALLL and/or capital needed to reserve for expected and
       unexpected losses; thereby, mitigating, to a certain degree, the bank’s risk profile.


FDIC Actions to Address Risks. The FDIC could have better ensured that it made
recommendations and took corrective actions that were effective and timely in addressing
Franklin’s risk.

   •   1-4 Family Residential and ADC Lending: From the September 2003 ROE
       until the final ROE in July 2008, the FDIC noted Franklin’s concentrations in
       California 1-4 family residential lending. Since the November 2005 ROE, the
       FDIC also noted Franklin’s concentrations in ADC lending. These concentrations
       were consistently mentioned in the ROEs; however, examiner recommendations
       were limited to asking Franklin to improve concentration monitoring or to adopt


                                            15
           combined concentration limits for ADC loans and builder lines. In our opinion,
           these recommendations were too limited given the known risks associated with
           Franklin’s loan portfolio. Not until the October 2007 and July 2008 ROEs did the
           FDIC make recommendations related to limiting the bank’s loan concentrations or
           mitigating the bank’s risk by requiring Franklin to increase its capital levels.

       •   Internal Audit Function: Although the FDIC noted concerns regarding the
           bank’s internal audit function in the September 2003, September 2004, November
           2005, October 2006, and October 2007 ROEs, the FDIC did not highlight
           inadequacies in the internal audit function as a repeated area of concern. Further,
           only the July 2008 ROE identified the apparent contraventions of Appendix A to
           Part 364, Interagency Guidelines Establishing Standards for Safety and
           Soundness, because the institution had not established internal controls,
           information systems, and an internal audit system appropriate to the size of the
           institution and the nature, scope, and risk of activities. Due to the significance
           and importance of this function, in our opinion, greater supervisory emphasis
           could have been placed on the bank’s failure to ensure full compliance with this
           regulatory requirement.

       •   Volatile Liability Limits and an Adequate CLP: In our opinion, the FDIC could
           have expressed greater supervisory concern over Franklin’s repeated failures to
           adequately implement examiner recommendations regarding improving the bank’s
           liquidity policies and establishing a CLP and volatile liability risk limits. The ROEs
           and interviews with FDIC examiners indicate that Franklin had not established volatile
           liability limits or an adequate CLP. Specifically, in the November 2005 through
           October 2007 ROEs, the FDIC repeatedly recommended that management set liquidity
           risk limits and formulate and/or document a CLP. However, bank management
           repeatedly failed to fully implement the FDIC’s recommendations. Further, the FDIC
           examiners we interviewed stated that bank management did not fully understand the
           need for contingency liquidity and crises plans and that management considered the
           bank’s CLP to be its ability to market and sell the 1-4 family residential loan portfolio.
           Examiners also stated that the bank’s failure to ensure that its loans were marketable
           was a critical management error that ultimately contributed to the bank’s liquidity
           crisis and failure.


IMPLEMENTATION OF PCA

    The purpose of PCA is to resolve problems of insured depository institutions at the least
    possible long-term cost to the DIF. PCA establishes a system of restrictions and
    mandatory and discretionary supervisory actions that are to be triggered depending on an
    institution’s capital levels. Part 325 of the FDIC’s Rules and Regulations implements
    PCA requirements by establishing a framework for taking prompt corrective action
    against insured nonmember banks that are not adequately capitalized.
    Franklin was categorized as significantly undercapitalized just prior to its failure. As a
    result, the FDIC issued a C&D that contained a capital provision that directed Franklin to


                                                16
    increase its capital. The C&D was issued on November 4, 2008, 3 days before the bank
    was closed. Franklin received a capital component rating of 2 for each of the four
    examinations conducted from September 2003 through October 2006. The capital
    component was downgraded to a 3 rating in the October 2007 examination and to a 5
    rating in the July 2008 examination. The downgrade in July 2008 resulted from the
    bank’s deficient level of capital due to severe asset quality problems and losses that
    rapidly eroded the bank’s capital position.

    PCA’s focus is on capital, and capital is a lagging indicator of an institution’s financial
    health. In addition, the use of PCA Directives depends on the accuracy of capital ratios
    in a financial institution’s Call Reports. Franklin’s capital designation for PCA purposes
    remained in the well capitalized range long after its operations had begun to deteriorate
    because of problems related to management, asset quality, risk management controls,
    accounting concerns, and net losses. In particular, the ALLL was significantly
    underfunded, which overstated capital and masked the deterioration of the loan portfolio.
    Further, by the time Franklin’s capital level fell below the required threshold necessary to
    implement PCA, the bank’s condition had deteriorated to the point at which the
    institution could not raise additional needed capital, estimated to total $165 million (to
    achieve a well capitalized designation under PCA provisions – as of March 31, 2008)
    through its BOD or find other investors to assist in recapitalizing the bank.

    The July 2008 ROE reported the following capital ratios, which reflected adjustments to
    the March 31, 2008 Call Report:

       •   Tier 1 Leverage Capital         2.81 percent
       •   Tier 1 Risk-Based Capital       4.00 percent
       •   Total Risk-Based Capital        5.67 percent

    The capital ratios reflect a significantly undercapitalized category under PCA provisions
    in section 325 of the FDIC’s Rules and Regulations. Also, the deterioration of Franklin’s
    capital ratios was not reflected in the bank’s UBPRs until September 30, 2008. On
    October 29, 2008, the FDIC presented the BOD with a PCA Notification of Capital
    Category letter that notified the bank of its significantly undercapitalized capital category,
    9 days before the bank was closed.


CORPORATION COMMENTS AND OIG EVALUATION

    On June 30, 2009, the Director, DSC, provided a written response to the draft report.
    DSC’s response is provided in its entirety as Appendix 4 of this report. In its response,
    DSC agreed with the OIG’s assessment that Franklin failed due to management’s pursuit
    of a high-risk business strategy in which Franklin focused on rapid growth concentrated
    in making and purchasing 1-4 family residential and ADC loans with wholesale funding,
    including potentially volatile non-core deposits and borrowings. In its response, DSC
    stated that rapid and pronounced declines in the residential real estate and secondary
    mortgage funding markets were important contributing factors to Franklin’s failure and


                                                 17
the resulting material loss to the DIF. DSC also acknowledged that more timely and
strict supervisory enforcement action was necessary.

In its response, DSC stated its view that substantial and ongoing supervisory concern had
been demonstrated by examiners since 2003 and quarterly offsite monitoring that was
conducted because of Franklin’s rapid-growth strategy. DSC mentioned that, from 2003 to
2006, examiners consistently noted (in the ROEs) Franklin’s dependence on high-risk,
volatile funding and its concentrations in 1-4 family residential and ADC loans. DSC further
stated that “. . . because asset quality appeared strong and capital adequacy and liquidity
sufficient, Franklin received composite ‘2’ examination ratings consistent with the FDIC’s
Risk Management Manual of Examination Policies.” DSC also stated that at the October
2007 examination, Franklin was downgraded to a composite 3 rating, and the BOD adopted a
comprehensive resolution with 14 specific provisions to be addressed by management. In
March 2008, DSC became aware of significant errors and possible intentional falsification of
Franklin’s Call Reports. Subsequently, in April 2008, DSC decided to accelerate the next
scheduled examination to July 2008, which ultimately resulted in the downgrading of
Franklin to a composite 5 rating. Of particular note, DSC pointed out that examiners
recognized Franklin’s use of poorly underwritten non-traditional mortgage products, growth
that outpaced its internal control structure, and due diligence on purchased loan pools that
became problematic.

Our findings in this MLR and DSC’s statement related to asset quality, capital adequacy,
and liquidity underscore one of the more difficult challenges facing FDIC examiners –
assessing risk management by banks when their reported financial condition and ratios
make them appear to be safe and sound. This issue and others will be discussed in our
future MLR summary reports.




                                           18
                                                                                    APPENDIX 1
                            OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

      We performed this audit in accordance with section 38(k) of the FDI Act, which provides
      that if a deposit insurance fund incurs a material loss with respect to an insured
      depository institution, on or after July 1, 1993, the Inspector General of the appropriate
      federal banking agency shall prepare a report to that agency reviewing the agency’s
      supervision of the institution. The FDI Act requires that the report be completed within
      6 months after it becomes apparent that a material loss has been incurred.

      Our audit objectives were to (1) determine the causes of the financial institution’s failure
      and resulting material loss to the DIF and (2) evaluate the FDIC’s supervision of the
      institution, including implementation of the PCA provisions of section 38.

      We conducted the audit from November 2008 to May 2009 in accordance with generally
      accepted government auditing standards. However, due to the limited scope and
      objectives established for material loss reviews, which are generally applied to just one
      financial institution, it may not have been feasible to address certain aspects of the
      standards, as described on the next page.


Scope and Methodology

      The scope of this audit included an analysis of Franklin’s operations from December 31,
      1998 until its failure on November 4, 2008. Our review also entailed an evaluation of the
      regulatory supervision of the institution from 2003 to 2008.

      To achieve the objectives, we performed the following procedures and techniques:

             •   Analyzed examination and visitation reports prepared by the FDIC and DSML the
                 FDIC from 2003 to 2008.

             •   Reviewed the following:

                   •   Bank data and correspondence maintained at DSC’s Dallas Regional Office
                       and Houston Field Office.

                   •   Reports prepared by the Division of Resolutions and Receiverships (DRR)
                       and DSC relating to the bank’s closure.

                   •   Records of the bank’s external auditor, Deloitte & Touche, LLP, Houston,
                       Texas, as made available through the external auditor’s counsel Latham &
                       Watkins, LLP, San Francisco, California.




                                                     19
                                                                                    APPENDIX 1


                 •   Pertinent DSC policies and procedures.

           •   Interviewed the following FDIC officials:

                 •   DSC management in Washington, D.C.; Dallas, Texas; and Houston, Texas.

                 •   FDIC examiners from the DSC Houston Field Office who participated in
                     Franklin examinations.

           •   Met with officials from the DSML of Austin, Texas, to discuss their historical
               perspective of the institution, its examinations, state banking laws, and other
               activities regarding the DSML’s supervision of the bank.

      We performed the audit field work at the DSC offices in Houston and Dallas, Texas.


Internal Control, Reliance on Computer-processed Information, Performance
Measurement, and Compliance With Laws and Regulations

      Due to the limited nature of the audit objectives, we did not assess DSC’s overall internal
      control or management control structure. We performed a limited review of Franklin’s
      management controls pertaining to its operations as discussed in the body of this report.

      For purposes of the audit, we did not rely on computer-processed data to support our
      significant findings and conclusions. Our review centered on interviews, ROEs and
      correspondence, and other evidence to support our audit.

      The Government Performance and Results Act of 1993 (the Results Act) directs
      Executive Branch agencies to develop a customer-focused strategic plan, align agency
      programs and activities with concrete missions and goals, and prepare and report on
      annual performance plans. For this material loss review, we did not assess the strengths
      and weaknesses of DSC’s annual performance plan in meeting the requirements of the
      Results Act because such an assessment is not part of the audit objectives. DSC’s
      compliance with the Results Act is reviewed in program audits of DSC operations.

      Regarding compliance with laws and regulations, we performed tests to determine
      whether the FDIC had complied with provisions of PCA and limited tests to determine
      compliance with certain aspects of the FDI Act. The results of our tests were discussed,
      where appropriate, in the report. Additionally, we assessed the risk of fraud and abuse
      related to our objectives in the course of evaluating audit evidence.




                                                   20
                                                                                   APPENDIX 2
                                GLOSSARY OF TERMS

      Term                                              Definition
Adversely           Assets subject to criticism and/or comment in an examination report.
Classified Assets   Adversely classified assets are allocated on the basis of risk (lowest to highest)
                    into three categories: Substandard, Doubtful, and Loss.

Allowance for       Federally insured depository institutions must maintain an ALLL that is
Loan and Lease      adequate to absorb the estimated loan losses associated with the loan and lease
Losses (ALLL)       portfolio (including all binding commitments to lend). To the extent not
                    provided for in a separate liability account, the ALLL should also be sufficient
                    to absorb estimated loan losses associated with off-balance sheet loan
                    instruments such as standby letters of loan.

Cease and Desist    A C&D is a formal enforcement action issued by a financial institution
Order (C&D)         regulator to a bank or affiliated party to stop an unsafe or unsound practice or a
                    violation of laws and regulations. A C&D may be terminated when the bank’s
                    condition has significantly improved and the action is no longer needed or the
                    bank has materially complied with its terms.

Concentration       A concentration is a significantly large volume of economically related assets
                    that an institution has advanced or committed to a certain industry, person,
                    entity, or affiliated group. These assets may, in the aggregate, present a
                    substantial risk to the safety and soundness of the institution.

Prompt              The purpose of PCA is to resolve the problems of insured depository
Corrective Action   institutions at the least possible long-term cost to the DIF. Part 325 of the
(PCA)               FDIC Rules and Regulations, 12 Code of Federal Regulations, section 325.101,
                    et. seq., implements section 38, Prompt Corrective Action, of the FDI Act, 12
                    United States Code section 1831o, by establishing a framework for taking
                    prompt supervisory actions against insured nonmember banks that are less than
                    adequately capitalized. The following terms are used to describe capital
                    adequacy: (1) Well Capitalized, (2) Adequately Capitalized,
                    (3) Undercapitalized, (4) Significantly Undercapitalized, and (5) Critically
                    Undercapitalized.

                    A PCA Directive is a formal enforcement action seeking corrective action or
                    compliance with the PCA statute with respect to an institution that falls within
                    any of the three categories of undercapitalized institutions.

Uniform Bank        The UBPR is an individual analysis of financial institution financial data and
Performance         ratios that includes extensive comparisons to peer group performance. The
Report (UBPR)       report is produced by the Federal Financial Institutions Examination Council
                    for the use of banking supervisors, bankers, and the general public and is
                    produced quarterly from Call Report data submitted by banks.




                                               21
                                                   APPENDIX 3
               EXAMINER COMMENTS AND RECOMMENDATIONS



               Management: Examiner Comments and Recommendations
                                                                           Examination Dates
                  Examiner Comments                            Sept   Sept    Nov    Oct     Oct   July
                                                               2003   2004 2005 2006 2007          2008
Overall conclusion on BOD and management performance
  • BOD and management are satisfactory/effective               9      9      9      9
  • BOD and management need improvement                                                      9
  • Management failed to adequately identify, measure,                                              9
    monitor, and control risks
High-risk business strategy
  • Concentrations in California 1-4 family residential         9      9      9      9       9      9
    and/or higher-risk ADC lending
  • Significant loan growth noted – however, not described             9      9       9      9
    as uncontrolled
  • Weak loan underwriting and administration                                                9      9
  • Heavily reliant on potentially volatile funding sources     9      9      9      9       9      9
Risk management practices
  • Appropriate internal controls are in place                  9      9      9      9
  • Inadequate system of internal controls                                                          9
  • Weak oversight of economic environment                                                          9
  • ALLL methodology is inadequate or weaknesses noted          9      9      9      9       9      9
  • Stress testing not performed on a portfolio-level basis                                  9      9
  • Accounting and financial reporting concerns noted                         9              9      9
  • Internal audit weaknesses noted and/or is inadequate        9      9      9      9       9      9
  • External audit is unsatisfactory                                                                9
  • Lack of responsiveness to examiner recommendations                                       9
Compliance with rules and regulations
  • Apparent contravention of Part 364 – Appendix A
    (related to internal controls, information systems, and                                         9
    internal audit function)
  • Apparent violation of Part 323 – Appraisals                                              9      9
Examiner recommendations
  • Develop a plan to reduce asset concentrations                                            9      9
  • Establish reasonable risk parameters/limits for volatile                                 9      9
    liabilities/non-core funding ratio, and/or eliminate
    reliance on brokered deposits
  • Perform a portfolio-level stress test                                                    9      9
  • Improve monitoring and reporting of economic                                                    9
    environment
  • Correct violations of laws and regulations                                                      9
  • Improve accounting and financial reporting                  9             9              9      9
  • Improve/enhance internal loan grading and review                                         9      9
  • Improve internal audit function                             9      9      9      9       9      9
  • Cause an external audit to be performed of the bank’s                                           9
    financial statements and a review of internal controls
Source: ROEs issued by DSML and the FDIC for Franklin.




                                                  22
                                                                                  APPENDIX 3

                       Asset Quality: Examiner Comments and Recommendations
                                                                         Examination Dates
                    Examiner Comments                          Sept Sept    Nov    Oct     Oct   July
                                                               2003 2004 2005 2006 2007          2008
Overall conclusion on Franklin asset quality
  • Asset quality is strong, and loan underwriting is           9    9       9      9
    conservative
  • Loan quality is deteriorating, and adverse classifications                             9      9
    are increasing
  • Asset quality is critically deficient                                                         9
Assessment of risk management practices
  • Risk management practices are inadequate                                               9      9
  • Economic downturn is impacting the bank’s loan                                         9      9
    portfolio and risk profile
  • Internal loan grading is inadequate                                                    9      9
1-4 Family residential mortgages
  • Loans are acquired through correspondents and serviced      9    9       9      9      9      9
    by others
  • Loans are concentrated in higher-risk geographic            9    9       9      9      9      9
    locations
  • Loans are comprised of hybrid adjustable rate               9    9       9      9      9      9
    mortgages/interest only mortgages
  • Loans are comprised of subprime mortgages                                9      9      9      9
  • Loans are comprised of nontraditional mortgages                                        9      9
ADC concentrations
  • Loans are comprised of large purchased participations                    9                    9
  • Loans are comprised of unsecured builder lines                                  9      9
  • Loans are concentrated in higher-risk geographic                         9      9      9      9
    locations
  • Concentrations are not adequately measured, monitored,                                 9      9
    and reported
Allowance for loan and lease losses and capital adequacy
  • Capital adequacy is based on PCA capital designation of          9       9      9
    well capitalized
  • ALLL is substantially deficient                                                        9      9
  • ALLL methodology and/or policy weaknesses noted             9    9       9      9      9      9
  • ALLL methodology is in contravention of policy                                         9      9
    statement
Examiner recommendations
  • Improve measuring, monitoring, and reporting of             9    9       9             9      9
    concentrations
  • Set portfolio dollar limits for hybrid adjustable rate           9
    mortgages
  • Adopt a combined concentration limit for ADC loans                              9      9
    and builder lines
  • Adopt concentration limits for ADC loans on a                                          9
    geographic basis and for unsecured builder lines
  • Develop a plan to reduce asset concentrations                                          9      9
  • Develop CRE business strategy plan                                                            9
  • Improve ALLL methodology or amend ALLL policy               9    9       9      9      9      9
Source: ROEs issued by DSML and the FDIC for Franklin.




                                               23
                                                                                     APPENDIX 3



                 Liquidity: Examiner Comments and Recommendations
                                                                           Examination Dates
                   Examiner Comments                           Sept   Sept    Nov    Oct     Oct   July
                                                               2003   2004 2005 2006 2007          2008
Overall conclusions on liquidity
  • Satisfactory/sufficient liquidity and funds management      9      9      9      9
  • Adequate risk management: identifies, measures,             9      9             9
    monitors, and controls risk
  • Marginal/critically deficient due to deteriorating asset                                 9      9
    quality and significant volatile liability dependence
Non-core funding sources
  • Heavily reliant on potentially volatile funding sources     9      9      9      9       9      9
  • Brokered deposits and FHLB borrowings used as               9      9      9      9       9      9
    funding sources
  • Volatile liability dependence mitigated by strong asset     9       9     9       9
    quality, underwriting standards, and/or liquid loan
    portfolio
  • Volatile liability dependence considered excessive due                                   9      9
    to declining asset quality
 Contingency liquidity plans
  • Sufficient secondary sources of funds to meet               9      9             9
    anticipated/unanticipated needs
  • 1-4 family residential loans (unpledged) serve as a         9      9      9      9
    secondary source of funds
  • Non-pledged U.S. Treasuries and mortgage-backed             9      9      9      9       9
    securities serve as secondary sources of funds
  • Unused borrowing lines serve as a secondary source of       9      9             9       9
    funds
  • Inadequate CLP/liquidity crisis plan                                      9      9       9      9
Examiner recommendations
  • Establish relevant/comprehensive risk parameters/limits     9             9      9
    for liquidity, brokered deposits, and/or FHLB
    borrowings
  • Establish reasonable risk parameters/limits for volatile                                 9      9
    liabilities/non-core funding ratio, and/or eliminate
    reliance on brokered deposits
  • Establish written guidelines for measuring and                            9
    monitoring available liquidity
  • Improve liquidity and develop a written plan to address                                         9
    liquidity and volatile liability dependence
  • Develop, document, and/or improve a CLP/liquidity                         9      9       9      9
    crisis plan
Source: ROEs issued by DSML and the FDIC for Franklin.




                                                    24
                       APPENDIX 4

CORPORATION COMMENTS




         25
     APPENDIX 4




26
                                                              APPENDIX 5
                ACRONYMS IN THE REPORT


Acronym   Definition
ADC       Acquisition, Development, and Construction
ALLL      Allowance for Loan and Lease Losses
BBR       Bank Board Resolution
BOD       Board of Directors
C&D       Cease and Desist Order
CAMELS    Capital, Asset Quality, Management, Earnings, Liquidity, and
          Sensitivity to Market Risk
CLP       Contingency Liquidity Plan
CRE       Commercial Real Estate
DIF       Deposit Insurance Fund
DRR       Division of Resolutions and Receiverships
DSC       Division of Supervision and Consumer Protection
DSML      Texas Department of Savings and Mortgage Lending
FDI       Federal Deposit Insurance
FHLB      Federal Home Loan Bank
FIL       Financial Institution Letter
OIG       Office of Inspector General
PCA       Prompt Corrective Action
ROE       Report of Examination
UBPR      Uniform Bank Performance Report
UFIRS     Uniform Financial Institution Rating System




                                27
